No. ______

In the
Supreme Court of the United States
October Term, 2020
JAMAR GARRISON, Petitioner
v.
UNITED STATES OF AMERICA, Respondent
__________

CERTIFICATE OF SERVICE
Margaret Sind Raben, being duly sworn deposes and says that on March 25,
2021, she caused to be served a copy of: MOTION TO PROCEED IN FORMA
PAUPERIS AND PETITION FOR WRIT OF CERTIORARI, upon the
Solicitor General of the United States, Room 5614, Department of Justice,
950 Pennsylvania Ave., NW, Washington, DC 20530-0001 by placing a copy of
said document(s) in an envelope correctly addressed to said addressee(s) and placing
in the United States Mails with proper postage affixed thereon.

/s/ Margaret Sind Raben

